Card and Account are subject to the following
conditions:
a. Ownership of Cards. Any Card or other credit
instrument or device which we supply to you is
our property and must be returned to us, or to any
person whom we authorize to act as our agent, or
to any person who is authorized to honor the Card,
immediately according to instructions. The Card
may be repossessed at any time at our sole
discretion without demand or notice. You cannot
transfer your Card or Account to another person.
You may not use the Card for any illegal or unlawful
transactions and we may decline to authorize any
transaction that we believe poses an undue risk of
illegality or unlawfulness.
b. Honoring the Card. Neither we nor merchants
authorized to honor the Card will be responsible
for the failure or refusal to honor the Card or any
other credit instrument or device we supply to
you. If a merchant agrees to give you a refund
or adjustment, you agree to accept a credit to your
Account in lieu of a cash refund.
c. Currency Conversion/Foreign Transaction Fee.
Purchases and cash advances made in foreign
countries will be billed to you in U.S. dollars. The
currency conversion rate for international
transactions as established by VISA International,
Inc. is a rate selected by VISA from the range of
rates available in wholesale currency markets for
the applicable central processing date, which rate
may vary from the rate VISA itself receives, or the
government mandated rate in effect for the
applicable central processing date. In addition,
you will be charged a Foreign Transaction Fee of
1% of the transaction amount for any card
transaction made in a foreign country.
d. Notices and Payments. All notices will be sent
to your address as shown on your credit union
account. You agree to advise us promptly if you
change your mailing address. All payments should
be mailed to us at the remittance address shown
on your monthly statements. Payments received at
that address will be credited to your Account as of
the date received.
e. Personal Identification Number. We will issue you
a Personal Identification Number (“PIN”) for use
with your Card at automatic teller machines
(“ATMs”). These numbers are issued to you for your
security purposes. These numbers are confidential
and should not be disclosed to third parties. You
are responsible for safekeeping your PIN. You
agree not to disclose or otherwise make available
your PIN to anyone not authorized to sign on your

Account. To keep your Account secure, please do
not write your PIN on your Card or keep it in the
same place as your Card.

grossly negligent or fraudulent in handling your Card;
otherwise your liability for unauthorized VISA Credit
Card transactions shall not exceed $50.

13. LOAN PROTECTION. Loan Protection coverage
is not required for any extension of credit under
this Agreement. However, you may purchase any
loan protection available through us and have the
premiums added to your outstanding balance. If
you elect to do so, you will be given the necessary
disclosures and documents separately.

17. YOUR CREDIT CARD BILLING RIGHTS. Keep
this document for future use. This notice tells you
about your rights and our responsibilities under the
Fair Credit Billing Act.

14. DEFAULT. You will be in default under this
Agreement if any of the following occur: (a) Any
minimum monthly payment is not made when due;
(b) You become insolvent, bankrupt, or you die; (c)
You violate any part of this Agreement, or any other
agreement with us; or (d) if we reasonably deem
ourselves insecure on your credit line. We will notify
you in writing of any such action as soon as practical
if it occurs. Upon default, we may declare the entire
unpaid balance immediately due and payable, and
you agree to pay that amount plus any attorney’s fees
and costs including collection agency costs incurred
by us. We can delay enforcing any right under this
Agreement without losing that right or any other
right. A negative credit report reflecting on your
credit record may be submitted to a credit-reporting
agency if you fail to fulfill the terms of this Agreement.
15. CREDIT INFORMATION / FINANCIAL STATEMENTS.
You authorize us to release information to others
(e.g., credit bureaus, merchants, and other financial
institutions) regarding the status and history of your
credit line. You agree to provide us, at any time we
deem necessary, with a current financial statement
and updated credit information upon request. We
may investigate your credit directly or through a credit
reporting agency.
16. LOSS OR THEFT OF VISA CREDIT CARD OR
CONVENIENCE CHECKS. You agree to notify us
immediately of the loss, or the theft, or the use
without your permission, of any Card or other credit
instrument or device which we supply to you. You
may be liable for the unauthorized use which occurs
after you notify us at: Telephone: (800) 449-7728 or
by writing us at P.O. Box 31112, Tampa, FL 336313112 orally or in writing of loss, theft, or possible
unauthorized use. If you notify us of your lost or
stolen Credit Card after discovery, you may not be
liable for any losses related to credit transactions.
This zero liability will apply provided you were not

What To Do If You Find A Mistake On Your Statement.
If you think there is an error on your statement, write
to us at: OneAZ Credit Union, P.O. Box 31112, Tampa,
FL 33631-3112. In your letter, give us the following
information:
• Account information: Your name and account
		number.
• Dollar amount: The dollar amount of the
		 suspected error.
• Description of problem: If you think there is an
		 error on your bill, describe what you believe is
		 wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your
		statement.
• At least 3 business days before an automated
		 payment is scheduled, if you want to stop
		 payment on the amount you think is wrong.
You must notify us of any potential errors in writing.
You may call us, but if you do we are not required to
investigate any potential errors and you may have to
pay the amount in question.
What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must
either correct the error or explain to you why we
believe the bill is correct.
While we investigate whether or not there has been
an error:
• We cannot try to collect the amount in question,
		 or report you as delinquent on that amount.
• The charge in question may remain on your
		 statement, and we may continue to charge you
		 interest on that amount.
• While you do not have to pay the amount in
		 question, you are responsible for the remainder
		 of your balance.

• We can apply any unpaid amount against your
		 credit limit.
After we finish our investigation, one of two things
will happen:
• If we made a mistake: You will not have to pay
		 the amount in question or any interest or other
		 fees related to that amount.
• If we do not believe there was a mistake: You
		 will have to pay the amount in question, along
		 with applicable interest and fees. We will send
		 you a statement of the amount you owe and
		 the date payment is due. We may then report
		 you as delinquent if you do not pay the amount
		 we think you owe.
If you receive our explanation but still believe your bill
is wrong, you must write to us within 10 days telling
us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting
that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as
delinquent, and we must let those organizations know
when the matter has been settled between us. If we
do not follow all of the rules above, you do not have
to pay the first $50 of the amount you question even
if your bill is correct.

will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report
you as delinquent.
18. AMENDMENTS. We reserve the right to amend
the terms and conditions of this Agreement as
permitted by and subject to any limitations or notice
requirements of applicable law.
19. GOVERNING LAW. This Agreement will not take
effect until it is approved by us. This Agreement shall
be governed by the laws of the State of Arizona.
20. ENTIRE AGREEMENT. You understand and agree
to the terms and conditions in this VISA Credit Card
Agreement. You acknowledge that you have received
a copy of the Agreement. This Agreement is a
final expression of the agreement between you
and the Credit Union. This Agreement may not be
contradicted by evidence of any oral agreement
or alleged oral agreement and contains the terms
applicable to the credit transaction.

Choice Rewards
Credit Card
Agreement and Disclosures

Your Rights If You Are Dissatisfied With Your Credit
Card Purchases. If you are dissatisfied with the goods
or services that you have purchased with your credit
card, and you have tried in good faith to correct the
problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home
state or within 100 miles of your current mailing
address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement
we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit card for the
purchase. Purchases made with cash advances
from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing
at the above address. While we investigate, the
same rules apply to the disputed amount as
discussed above. After we finish our investigation, we

2355 W. Pinnacle Peak Rd.
Phoenix, AZ 85027
REV. 4/20/16

M-118444

ONEAZ CREDIT UNION
CHOICE REWARDS CREDIT CARD
AGREEMENT AND DISCLOSURE

1. INTRODUCTION. This VISA Credit Card Agreement
(Agreement)
and
the
Account
Disclosures
accompanying this Agreement will govern your
Choice Rewards Credit Card and account issued by
OneAZ Credit Union. In this Agreement the words
“you,” “your,” “yours,” “applicant,” and “Borrowers”
mean any person who signs the application for this
Account, any joint obligor, guarantor, authorized user,
or the person whose name is embossed on the Card.
The words “we,” “us,” “our,” and “Lender” mean
OneAZ Credit Union. The word “Card” means any
one or more credit cards issued under the Credit
Union’s VISA Card program. If you sign or cosign an
application for this Account or sign or use any Card
or PIN, or allow others to use the Card or PIN, you
and they will have accepted this Agreement just as if
you and they signed it, and you and they, jointly and
severally, will be bound by the following terms and
conditions which will govern this Account.
2. ACCOUNT ACCESS.
a. Purchases, Cash Advances & Balance Transfers.
You must sign the Card to use it. Once you have
signed the Card, you can use it to buy or lease
goods or services, wherever the Card is honored,
up to the full amount of your credit line. You may
use your Account to get cash advances from us. You
may also use your Card to get a cash advance from
participating financial institutions or automated
teller machine (ATM). You may use your Card to
purchase goods and services any place your
VISA Card is honored by participating merchants.
In addition, you may access your account through
balance transfers of credit card balances from
other financial institutions. No purchase may
exceed the available credit line established for your
account. The Credit Union reserves the right
to refuse any transaction that would draw upon
insufficient funds.
b. VISA Convenience Checks. If available, you may
obtain advances under your Account by writing
preprinted VISA convenience loan checks that we
supply to you. Your use of loan checks will be
shown as cash advances on your monthly
statement. We may not honor your loan check if:
your check is post-dated; payment of the check
would exceed your Credit Limit; a check is signed
by person without authorized access; the amount of

the check is less than the minimum required
amount; your Account has been terminated or
suspended, or any drafts have been reported lost
or stolen. You may stop payment on a loan check if
you provide us with the exact information
describing the check. If you give us incorrect
information, we will not be responsible for failing to
stop payment. You understand there may be a
charge for each stop payment order requested.
Our liability for a wrongful dishonor is limited
to your actual charges; however, a dishonor for the
reasons stated above is not a wrongful dishonor.
Only the person whose name is printed on a
convenience check may sign it. All convenience
checks must be written in U.S. dollars. We will
not certify a convenience check. You may write
these checks for any amount providing your total
outstanding balance does not exceed your
available credit limit and your credit card remains
in good standing. We are entitled to return it
unpaid if there is not enough available credit on
your account to pay it, if you are in default under this
Agreement, if your card or convenience checks have
been reported lost or stolen, or if the convenience
check is post-dated. A VISA convenience check
may not be used to make a payment on your VISA
credit card account. The Credit Union shall have no
liability for any convenience check returned in
excess of your credit line.
3. YOU PROMISE TO PAY. You promise to pay us
all such amounts, plus any Interest Charges, which
arise from use of the Card or Account by you or any
other person, and to be jointly and severally liable
with such a person, unless such other person does
not have actual, implied, or apparent authority for
such use, and you received no benefit from the use.
You promise to pay us either by direct payment or by
automatic transfers.
4. CREDIT LINE. This Agreement will constitute a
revolving line of credit for an amount which will
be the credit line under your Account. You may
access your credit line through card purchases, cash
advances at participating merchants, loan checks
and balance transfers. We will advise you of the
amount of your credit line on your statement.
That amount will be the maximum amount you may
have outstanding at any one time. You agree not to
attempt to obtain more credit than the amount
of your credit line. We retain the right to increase
or decrease your credit line at any time for any
reason. Any increase or reduction on the limit of your

credit line will be shown on your monthly statement
or by separate notice together with any changes in
the applicable minimum monthly payments. Your
eligibility for this credit line is determined by our
loan policy and may be terminated at our sole
discretion, without demand or notice. You may close
your credit line at any time by notifying us in writing.
If you terminate this Agreement or if we terminate
or suspend your credit privileges, the provisions of
this Agreement and your liability hereunder shall
otherwise remain in full force and effect until you have
paid us all sums due us under this Agreement.

your VISA Credit Card Account. You agree that all
collateral you have given the Credit Union to secure
other open-end consumer loan obligations (except
dwelling secured loans), in the past and in the future,
will secure your obligations under this Agreement. In
addition, by signing the Card Application, you have
given us a security interest in all your shares and
deposits, present and future, and all accounts (except
Individual Retirement Accounts) with the Credit Union
you agree, upon default, the Credit Union may apply
all that is secured to pay any amounts due under this
Agreement, without further notice to you.

5. MINIMUM MONTHLY PAYMENT. You agree that
you will pay each month not less than the minimum
monthly payment on or before the scheduled monthly
due date. The minimum monthly payment will be
2.0% of your outstanding balance (“New Balance”)
or $25.00, whichever is greater. If your outstanding
balance is $25.00 or less, you agree to pay the balance
in full. You may pay in full for all your purchases and
cash advances each month, or you may repay in
monthly installments. We can accept late payments
or partial payments, or checks, drafts, or money
orders marked “payment in full” without prejudice
to our rights under this Agreement, which are hereby
explicitly reserved. A credit posting from a merchant
or reversal of fees do not constitute a minimum
payment. The minimum payment may be allocated
at the Credit Union’s discretion to pay off lower rate
balances, such as promotional offers, before higher
rate balances, such as cash advances or purchases.
Payments in excess of the minimum payment will be
allocated first to higher rate balances, as applicable.
From time to time, we may allow you to skip your
minimum monthly payment due. If you choose to
skip that payment, Interest Charges will continue to
accrue in accordance with this Agreement. Payments
received at: 2355 W. Pinnacle Peak Rd., Phoenix, AZ
85027 at or before 5:00 PM Mountain Standard Time
on any business day will be credited to your Account
as of that date; payments received by mail at that
address after 5:00 PM Mountain Standard Time,
on a weekend or federal holiday will be posted to
your Account as of the next business day. Payment
crediting to your Account may be delayed up to
five days if your payment is received by mail at any
other address or not accompanied by the remittance
portion of your Account statement.

7. MONTHLY STATEMENTS. Each month we will
send you a statement showing purchases, cash
advances, payments, and credits made to your
Account during the billing cycle, as well as your “New
Balance,” any Interest Charge and any late charge or
other charges.Your statement also will identify the
Minimum Monthly Payment you must make for that
billing period and the date it is due. You agree to
retain for statement verification copies of transaction
slips resulting from each purchase, each advance, and
other transaction on your Account. Unless you notify
us of a billing error as described below, you accept
your monthly statement as an accurate statement of
your Account with us.

6. SECURITY INTEREST. You grant the Credit Union a
security interest under the Arizona Uniform
Commercial Code in any goods purchased through

8. CIRCUMSTANCES UNDER WHICH AN INTEREST
CHARGE WILL BE IMPOSED. The total outstanding
balance of purchases and cash advances in the
Account on the closing date of a billing cycle,
including any Interest Charge will be shown on the
Periodic Statement for that billing cycle as the “New
Balance.”
a. Cash Advances (Interest Charge). An Interest
Charge will be imposed on cash advances and
balance transfers from the date each advance is
made to the date paid. The Credit Union charges
a cash advance fee (Interest Charge) of 3% of the
cash advance transaction (minimum $10.00) from
the date of the transaction until the amount is paid.
There is no grace period to avoid a cash advance|
fee (Interest Charge). There is no cash advance
fee on balance transfer advances or convenience
checks. There is a minimum Finance Charge of
$1.00 on unpaid balances.
b. Purchases. An Interest Charge will be imposed on
the portion of purchases included in the new
balance that remains unpaid 25 days after the
closing date. This “grace period” allows you to
avoid an Interest Charge on purchases for a billing
cycle. However, to the extent you do not pay your

purchase transactions within the grace period, your
Interest Charge will accrue from the date purchases
are posted to your account. There is a minimum
Finance Charge of $1.00 on unpaid balances.
9. METHOD USED TO DETERMINE THE BALANCE
ON WHICH THE INTEREST CHARGE MAY BE
COMPUTED AND AMOUNT OF INTEREST CHARGE.
The Credit Union figures the Periodic Interest Charge
on your Account by applying the Periodic Rate to the
“Average Daily Balance” of new and previous unpaid
transactions for your Account. To get the “Average
Daily Balance” we take the beginning purchase and
cash advance balances of your Account each day, add
any new purchases, cash advances, balance transfer
amounts or debit adjustments or charges and subtract
any payments or credits, unpaid Interest Charges and
unpaid late charges. This gives us the daily balance.
Then we add up all the daily balances for the billing
cycle and divide by the number of days in the billing
cycle. This gives us the Average Daily Balance for
purchases, cash advances and balance transfers.
10. PERIODIC RATE AND CORRESPONDING
ANNUAL PERCENTAGE RATE.
a. Variable Rate. During an introductory period, we
offer a fixed Annual Percentage Rate for purchases,
cash advances and balance transfers. The
introductory period is six months for purchases and
cash advances and nine months for balance
transfers. After the introductory period, your
Annual Percentage Rate will be variable based on
the following terms. The Interest Charge imposed
during the billing cycle will be determined by
multiplying the Average Daily Balance by the Daily
Periodic Rate times the number of days in the
billing cycle. The Periodic Rate and Annual
Percentage Rate are variable based on a margin
and an index, which is the highest Prime
Rate published in the Western Edition of the Money
Rates Section of the Wall Street Journal. We add a
margin to the index to obtain the Annual
Percentage Rate. The margin we add may range
from 7.74% to 14.75% based upon your credit
qualifications. The index is determined the
1st day of the billing cycle immediately following
the expiration of the Introductory Rate period
and subsequently, on the 15th day of the month
immediately proceeding the 1st day of each billing
cycle, rounded to the nearest .25 percentage
point. The index plus/minus margin equals the
Annual Percentage Rate. The Annual Percentage
Rate is divided by 365 to determine the Daily

Periodic Rate. Changes in the Annual Percentage
Rate may affect the amount of the payment and
the number of payments you will make. The Annual
Percentage Rate will never exceed 18.00%. The
Annual Percentage Rate and Periodic Rate
applicable to your account will be based upon
your credit qualification and margin assigned to
you and will be disclosed on a separate disclosure
accompanying your Card or this Agreement and
shown on each monthly statement. The “Total
Interest Charge” shown on your monthly statement
consists of the periodic Interest Charge on
purchases, the periodic Interest Charge on cash
advances and Cash Advance (Interest Charge) fees.
b. Default Rate. The Daily Periodic Rate and Annual
Percentage Rate may increase if your minimum
payment has not been received within 60 days after
the due date for such payment, in which case the
Annual Percentage Rate for your entire balance
will immediately increase to 18.00%. Following the
default rate increase, if you make your payments
on time for six (6) consecutive months, the Annual
Percentage Rate based on a default will terminate
and the prevailing variable Annual Percentage
Rate will apply.
11. CONDITIONS UNDER WHICH OTHER CHARGES
MAY BE IMPOSED. You agree to pay the following
fees and charges on your Account:
a. Late Fee. If we do not receive your minimum
payment by the payment due date shown on your
statement, you agree to pay a Late Fee of $25.00.
b. Returned Item Charge. If any check or draft we
receive from you as payment for any amount you
owe to us is returned to us unpaid, you agree to
pay a returned item fee of $25.00 or the amount of
the returned item, whichever is less.
c. ATM Fees. If you use an ATM to obtain a cash
advance and the ATM is not operated by us,
you may be charged an ATM surcharge by the
ATM operator or an ATM network utilized for such
a transaction. The ATM surcharge may be charged
to your account if you complete the transaction.
d. Attorney’s Fees and Costs. If you default on
any part of this Agreement, you agree to pay us
all costs to collect your Account, including court
costs and reasonable attorney fees and collection
agency costs whether or not there is a lawsuit,
and fees on any appeal and fees for bankruptcy
proceedings, appeals, and any post judgment
collection services, if applicable.
12. CONDITIONS OF CARD USE. The use of your

